NO. 19-910

3ht t\)t

Supreme Court of tfje Hntte& States!
..............*

AVTAR S. BADWAL,
Petitioner,
v.

RAMANDEEP BADWAL and
JEFFREY S. BROWN, In His Official and Personal Capacities,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Second Circuit
PETITION FOR WRIT OF CERTIORARI

Avtar S. Badwal
Petitioner Pro Se
9737 120th Street
South Richmond Hill, NY 11419
(212)671-2433
BADWALAVTAR@GMAIL.COM

August 20,2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

RECEIVED
DEC - 9 2019
OFFICE OF THE CLERK
SUPREME COURT. U.S.

1

QUESTION PRESENTED
Pursuant to 42 U.S.C. § 1983, Judge Jeffrey Brown
who presided over the Divorce hearing acted in a
manner that created an impermissible risk of systemic
judicial bias, thereby violating due process. The
Question Presented is:
Can the Petitioner request and receive a new
trial from the Matrimonial Judge in a Divorce case
whom acted against him with bias because he filed a
judicial complaint against him?

11

LIST OF PROCEEDINGS BELOW
United States Court of Appeals for the Second Circuit
Case No. 18-827
Avtar S. Badwal, Plaintiff-Appellant v. Ramandeep
Badwal, Jeffrey S. Brown, In His Official and
Personal Capacity, Defendants-Appellees.
Decision Date: March 12, 2019
Rehearing Denial Date: May 28, 2019

United States Court of Appeals for the Eastern District
Court, Eastern District of New York
Case No. 17-CV-4310
Avtar S. Badwal, Plaintiff v. Ramandeep Badwal,
Jeffrey S. Brown, In His Official and Personal
Capacity, Defendants.
Decision Date: February 2, 2018

New York Court of Appeals
No. 2016-923
Ramandeep Badwal, Respondent v.
Avtar S. Badwal, Appellant
Decision Date: November 22, 2019

iii

Supreme Court of the States of New York
County of Nassau
No. 201751/06
Ramandeep Badwal, Respondent v.
Avtar S. Badwal, Appellant
Decision Date: November 22, 2016

New York Appellate Division, Second Judicial Dept.
20152013-06098 (N.Y. App. Div. 2015)
Ramandeep Badwal, Plaintiff, v.
Avtar S. Badwal, Defendant
Decision Date: October 2, 2015

IV

TABLE OF CONTENTS
Page
QUESTION PRESENTED.......................................

1

LIST OF PROCEEDINGS BELOW.........................

n

TABLE OF AUTHORITIES.....................................

Vll

OPINIONS BELOW..................................................

1

JURISDICTION..........................................................

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED.............................

1

PRELIMINARY STATEMENT................................

3

FACTUAL ALLEGATIONS
AND DECISION BELOW..................................

3

Facts........................................,................................

3

ARGUMENT............................................................... 17
I.

Due Process Requires an Unbiased
Decision-Maker............................................. 17

II. Whether the Availability of an
Article 78 Proceeding Satisfies Due
Process Depends on the Nature of
That Proceeding, and the Proceeding
Available to Appellants Was Insufficient
to Challenge the Alleged Systemic
Bias in Their Administrative Hearings....... 19
A. Locurto Requires a Full Adversarial
Hearing in Order to Satisfy Due Process.... 20

V

TABLE OF CONTENTS - Continued
Page
B. Whether an Article 78 Proceeding
Satisfies Due Process Depends Critically
on the Type of Proceeding Available
Under the Circumstances........................... 20
C. Appellants Did Not Have Access to the
Proceeding That Met the Requirements
of Locurto.................................................... 24
CONCLUSION

31

APPENDIX TABLE OF CONTENTS
FEDERAL COURTS
Opinion of the United States Court of Appeals for
the Second Circuit (March 12, 2019)................ la
Memorandum and Order of the United States
District Court for the Eastern District of New
York (February 2, 2018)..................................... 5a
Order of the United States Court of Appeals for the
Second Circuit Denying Petition for Rehearing
(May 28, 2019).................................................... 13a
NEW YORK COURTS
Order of the Court of Appeals of New York
(November 22, 2016)...................................

14a

Decision and Order of the Supreme Court
of the State of New York (October 2, 2015)..... 15a

VI

TABLE OF CONTENTS - Continued
Page
Decision and Order of the Supreme Court
of the State of New York (August 3, 2015)...... 18a
Opinion of the Appellate Division of the Supreme
Court of the State of New York
(March 11, 2015).......................................
25a
Decision After Trial of the Supreme Court
of the State of New York (May 2, 2008)...

29a

Order of the Supreme Court of the
State of New York (September 15, 2008)........46a
Order of the Supreme Court of the
State of New York (May 2, 2008)

48a

Vll

TABLE OF AUTHORITIES
Page
CASES
Aetna Life Ins. Co. v. Lavoie,
475 U.S. 813 (1986).............................

17

Allen v. DeBello,
2017 WL 2766365 (3rd Cir. 2017)..... 7, 11, 15, 30
BeechwoodRestorative Care Ctr. v. Leeds,
436 F.3d 147 (2d Cir. 2006).................

23

Bell v. Burson,
402 U.S. 535 (1971).............................

17

Berenhaus v. Ward,
70 N.Y.2d 436 (1987)..........................

22

Braatelien v. United States,
147 F.2d 888 (8th Cir. 1945).............. 5, 8, 12, 28
Buchalter v. New York,
319 U.S. 427(1943)............................. 6, 9, 13, 28
Campo v. New York CityEmp. Ret. Sys.,
843 F.2d 96 (2d Cir. 1988)..................

20, 23

Caperton v. A. T. Massey Coal Co.,
129 S.Ct. 2252 (2009).........................

18, 19

Ex parte Young,
209 U.S. 123 (1908).............................

passim

Gibson v. Berryhill,
411 U.S. 564(1973).............................

17, 18, 26

Gudema v. Nassau County,
163 F.3d 717 (2d Cir. 1998)................

24

vm
TABLE OF AUTHORITIES—Continued
Page
Hafer v. Melo,
502 U.S. 21 (1991)........................................ passim
Hellenic Am. Neighborhood
Action Comm. v. City ofNew York,
101 F.3d 877 (2d Cir. 1996)...........................

23

Hughes v. Suffolk county Dep’t of Civil Serv.,
74 N.Y.2d 833, 834,
amended, 74 N.Y.2d 942 (1989)...................

22

In re Murchison,
349 U.S. 133 (1955)......................................

17

In re Pasta Chef, Inc. v. State Liquor Auth.,
389 N.Y.2d 72 (App. Div. 4th Dept. 1976).

22

Interboro Inst., Inc., v. Foley,
985 F.2d 90 (2d Cir. 1993).............................

23

Kelly v. Safir,
96 N.Y.2d 32 (2001).....................................

22

Lakeshore Nursing Home v. Axelrod,
586 N.Y.S.2d 433 (App. Div. 3d Dept. 1992)

22

Lisenba v. California,
314 U.S. 219 (1941).............!............

6, 10, 13, 29

Locurto v. Safir,
264 F.3d 154 (2d Cir. 2001)............

passim

Munafo v. Metropohtan Transp. Auth.,
285 F.3d 201 (2d Cir. 2002).............

24

Nuebe v. Da us,
665 F.Supp.2d 311 (S.D.N.Y 2009)

19

IX

TABLE OF AUTHORITIES—Continued
Page
Pell v. Board ofEduc.,
34 N.Y.2d 222 (1974).................................

21, 22

Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89 (1984)....
7, 10, 14, 29
Pulliam v. Allen,
466 U.S. 522 (1984)...

5, 9, 13, 28

Rodriguez-Rivera v. Kelly,
2 N.Y.3d 776 (2004)...

22

Scheuer v. Rhodes,
416 U.S. 232 (1974)...

7, 10, 14, 29

Snyder v. Massachusetts,
291 U.S. 97 (1934).....

6, 9, 13, 28

Texas Dep’t of Community Affairs v. Burdine,
450 U.S. 248 (1981)....................
5, 8, 12, 27
Turney v. Ohio,
273 U.S. 510 (1927)....................

17, 18

Vargas v. City ofNew York,
377 F.3d 200 (2d Cir. 2004)........

24

Vickrey v. Dunivan,
59 N.M. 90, 279 P.2d 853 (1955)

5, 9, 12, 28

Ward v. Vil. of Monroeville,
409 U.S. 57 (1972).........................

17, 26

Withrow v. Larkin,
421 U.S. 35 (1975)........................

18

Yarbough v. Franco,

95 N.Y.2d 342 (2000)............. .

21, 22

X

TABLE OF AUTHORITIES—Continued
Page
Zarcone v. Perry,
572 F.2d 52 (2d Cir. 1978)

5, 8, 12, 27

Zinermon v. Burch,
494 U.S. 113 (1990).......

24

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. XI

passim

U.S. Const, amend. XIV, § 1

passim

STATUTES
28 U.S.C § 1254(1)

1

28 U.S.C. § 455a...

4, 8, 12, 27

42 U.S.C. § 1983 ....

passim

JUDICIAL RULES
NY CPLR § 7801 ....

20

NYCPLR§ 7803....

21, 22

NY CPLR § 7803(4).

22, 25

NY CPLR § 7804(h)

22

OTHER AUTHORITIES
David D. Siegel,
New York Practice
(3d ed. 1999)...........

21

1

OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Second Circuit, dated March 12, 2019 is
included below at App.la. The opinion of the United
States District Court for the Eastern District Court,
Eastern District of New York, dated February 2,
2019 is included below at App.5a.

JURISDICTION
The Second Circuit issued its final opinion on
March 12, 2019 and denied a petition for rehearing on
May 28, 2019. (App.l3a) This Court has jurisdiction
pursuant to 28 U.S.C. § 1254(l).

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const, amend. XI
The Judicial power of the United States shall
not be construed to extend to any suit in law or
equity, commenced or prosecuted against one of
the United States by Citizens of another State,
or by Citizens or Subjects of any Foreign State.
U.S. Const., amend. XIV, § 1
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,

2

are citizens of the United States and of the state
wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.
42 U.S.C. § 1983
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress, except that
in any action brought against a judicial officer
for an act or omission taken in such officer’s
judicial capacity, injunctive relief shall not be
granted unless a declaratory decree was violated
or declaratory relief was unavailable. For the
purposes of this section, any Act of Congress
applicable exclusively to the District of Columbia
shall be considered to be a statute of the District
of Columbia.

3

PRELIMINARY STATEMENT
Appellant believed the Matrimonial Judge in the
Divorce case acted with bias against him because he
filed a judicial complaint against him. He requests a
new trial with a different unbiased Judge. Appellants
brought this suit pursuant to 42 U.S.C. § 1983 claiming,
inter aha, that the Judge who presided over his Divorce
acted in a manner that created an impermissible risk
of systemic judicial bias, thereby violating due process.

FACTUAL ALLEGATIONS AND
DECISION BELOW
Appellant alleges that this is an action for
declaratory and injunctive relief and damages, for
actual, statutory damages brought pursuant to the
Civil Rights Act of 1871, 42 U.S.C. § 1983; the Equal
Protection and Due Process Clauses of the Fourteenth
Amendment to the United States Constitution. This
is also under Title 42 U.S.C. § 1983 et Seq., and
violation of Section 8 Article 1 of the New York State
Constitution and under common law and policy of the
State of New York.
Facts
1. The factual history of this case is that my due
process was violated and the State Court was bias
and the decisions were prejudicial.

4

2. That upon information and belief there was a
Prejudicial Order issued as a result of the Divorce
proceedings.
3. That the Plaintiff/Appellant replies and respec­
tfully asks this Honorable Court to grant his appeal
and set up a schedule for discovery and for this
matter to be decided on the merit because of the
obvious bias of Jeffrey S. Brown and his abuse of
judicial power. Judges should render decisions based
on what the law states so as not to ensure mediocrity
in the judiciary. That upon information and belief
Jeffrey S. Brown tampered with the records and
certain documents were removed from the records to
purposely harm me. He should have recused himself
from the matter. He showed lack of judicial knowledge
and real understanding of the case. He purposely did
everything he could to punish me. Instead of being a
neutral umpire he descended onto the arena and
showed personal hatred, bias and discriminatory
tendencies towards me. That contrary to the Appellees
response my ex-wife’s property was actually purchased
with my money and most of their false claims leave
me speechless and I am very troubled by it. A lot of
things were done wrong in this case and they are
afraid of the exposure this will bring.
I pray this Honorable Court to grant my appeal
and for this matter to proceed to discovery where I
would be able to expose what actually happened in
this matter. I really need much time as a Pro Se to do
proper research in my case. This case is about violation
of my Constitutional rights pursuant to Title 42 Section
1983 Fraud upon the Court pursuant to Title 28 Section
455a. In his response, he does not oppose the claims

5
at all, but rather immunity and he is not immune from
fraud. Texas Dep’t of Community Affairs v. Burdine,
450 U.S. 248, 253 (1981). The case leaves the Judge
to pay damage award personally. See, e.g., Zarcone v.
Perry, 572 F.2d 52 (2d Cir. 1978) Damage award upheld
against judge who had a coffee and frankfurter vendor
brought handcuffs to his chambers were the judge
berated and threatened the vendor for selling a “putrid”
cup of coffee. See, Braatelien v. United States, 147
F.2d 888, 895 (8th Cir. 1945) “Judicial title does not
render its holder immune to crime even when com­
mitted behind the shield of judicial office.” (Citation
Omitted). Vickrey v. Dunivan, 59 N.M. 90, 279 P.2d
853 (1955) Justice of the peace, who tried motorist
under a village ordinance he knew did not exist, and
who offence, if any, occurred outside his village, was
not empowered with jurisdiction and thus was not
immune.
In order to implement the Civil Rights amend­
ments, Congress enacted the Civil Rights Act of 1871
codified as 42 U.S.C. § 1983. Section 1983 imposes
civil liability on “every person who under the color of
state law causes another person within the jurisdiction
of the United States deprivation of any rights, privileges
or immunities seemed by the Constitution and laws.
Magistrate Pulliam was shock when in 1984; the
Supreme Court ruled that she was liable for over
$80,000 because her conduct caused private injury to
a plaintiff—even though her actions were indisputably
judicial acts within her subject jurisdiction. Pulliam
v. Allen, 466 U.S. 522 (1984).
The provisions of the Bill of Rights now applicable
to the States contain basic guarantees of a fair trial-

6

right to counsel, right to speedy and public trial, right
to be free from use of unlawfully seized evidence and
unlawfully obtained confessions, and the like. But this
does not exhaust the requirements of fairness. “Due
process of law requires that the proceedings shall be
fair, but fairness is a relative, not an absolute
concept... What is fair in one set of circumstances
may be an act of tyranny in others.” Snyder v.
Massachusetts, 291 U.S. 97, 116, 117 (1934). See also
Buchalter v. New York, 319 U.S. 427, 429 (1943). In
order to declare a denial of it. .. [the Court] must
find that the absence of that fairness fatally infected
the trial; the acts complained of must be of such
quality as necessarily prevents a fair trial.” Lisenba
v. California, 314 U.S. 219, 236 (1941). Ex parte
Young, 209 U.S. 123, 159-60 (1908) (stating that the
state official is “stripped of his official or representative
character and is subjected in his person to the
consequences of his individual conduct. The State
has no power to impart to him any immunity from
responsibility to the supreme authority of the United
States.”) (citation omitted). In Ex parte Young, the
Court held that the Eleventh Amendment does not
bar suit against a state official acting in violation of
federal law. Although often termed a legal fiction the
doctrine is premised on the unassailable idea that a
state cannot authorize its officials to violate the
Constitution and laws of the United States. Thus,
such an action is not considered an action of the state
and cannot be shielded from suit by a state’s immunity.
Therefore, when this doctrine applies, a state officer
can be sued for violating a mandatory federal duty.
SeeHafer v. Melo, 502 U.S. 21, 30 (1991) (“[S)ince Ex
parte Young, ” we said, ‘it has been settled that the

7

Eleventh Amendment provides no shield for a state
official confronted by a claim that he had deprived
another of a federal right under the color of state
law.”’) (quoting Scheuer v. Rhodes, 416 U.S. 232,237
(1974)) (first alteration in original) (internal citation
omitted); Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89, 105 (1984) (stating that the Ex parte
Young doctrine is necessary “to permit the federal
courts to vindicate federal rights and hold state
officials responsible to ‘the supreme authority of the
United States’”) (quoting Ex parte Young, 209 U.S. at
160). If such a suit is successful, the state officer may
be held personally liable for damages under 42
U.S.C. § 1983 based upon actions taken in his official
capacity. See Hafer, 502 U.S. at 30-31.
In the recent Third Circuit section 1983 case,
fathers of minor children brought actions seeking
declaratory and injunctive relief against various defen­
dants, including state court judges, alleging that
custody standards violated the Fourteenth Amendment.
Finding Rooker-Feldman inapplicable, although ulti­
mately ruling for the defendants, the Third Circuit
pointed out that the plaintiffs did not challenge state
court judgments but the underlying policy that gov­
erned them, namely, allegedly stripping parents of
custody in favor of other parents without a plenary
hearing and using an improper best-interests-of-thechild standard. Allen v. DeBello, 2017 WL 2766365 (3rd
Cir. 2017). The PlaintiffiAppellant replies and respect­
fully asks this Honorable Court to grant his appeal and
set up a schedule for discovery and for this matter to
be decided on the merit because of the obvious bias of
Jeffrey S. Brown and his abuse of judicial power.
Judges should render decisions based on what the law

8

states so as not to ensure mediocrity in the judiciary.
That upon information and belief Jeffrey S. Brown
tampered with the records and certain documents
were removed from the records to purposely harm
me. He should have recused himself from the matter.
He showed lack of judicial knowledge and real under­
standing of the case. He purposely did everything he
could to punish me. Instead of being a neutral umpire
he descended onto the arena and showed personal
hatred, bias and discriminatory tendencies towards
me. That contrary to the Appellees response my exwife’s property was actually purchased with my money
and most of their false claims leave me speechless
and I am very troubled by it. A lot of things was done
wrong in this case and they are afraid of the exposure
this will bring.
I pray this Honorable Court to grant my appeal
and for this matter to proceed to discovery where I
would be able to expose what actually happened in
this matter. I really need much time as a Pro Se to do
proper research in my case. This case is about violation
of my Constitutional rights pursuant to Title 42 Section
1983 Fraud upon the Court pursuant to Title 28 Section
455a. In his response, he does not oppose the claims
at all, but rather immunity and he is not immune from
fraud. Texas Dep’t of Community Affairs v. Burdine,
450 U.S. 248, 253 (1981). The case leaves the Judge
to pay damage award personally. See, e.g., Zarcone v.
Perry, 572 F.2d 52 (2d Cir. 1978) Damage award upheld
against judge who had a coffee and frankfurter vendor
brought handcuffs to his chambers were the judge
berated and threatened the vendor for selling a “putrid”
cup of coffee. See, Braatelien v. United States, 147 F.2d
888, 895 (8th Cir. 1945) “Judicial title does not render

9

its holder immune to crime even when committed
behind the shield of judicial office.” (Citation Omitted).
Vickrey v. Dunivan, 59 N.M. 90, 279 P.2d 853 (1955)
Justice of the peace, who tried motorist under a
village ordinance he knew did not exist, and who
offence, if any, occurred outside his village, was not
empowered with jurisdiction and thus was not immune.
In order to implement the Civil Rights amend­
ments, Congress enacted the Civil Rights Act of 1871
codified as 42 U.S.C. § 1983. Section 1983 imposes civil
liability on “every person who under the color of state
law causes another person within the jurisdiction of
the United States deprivation of any rights, privileges
or immunities secured by the Constitution and laws.
Magistrate Pulliam was shock when in 1984; the
Supreme Court ruled that she was liable for over
$80,000 because her conduct caused private injury to
a plaintiff—even though her actions were indisputably
judicial acts within her subject jurisdiction. Pulliam
v. Allen, 466 U.S. 522 (1984).
The provisions of the Bill of Rights now applicable
to the States contain basic guarantees of a fair trialright to counsel, right to speedy and public trial, right
to be free from use of unlawfully seized evidence and
unlawfully obtained confessions, and the like. But
this does not exhaust the requirements of fairness.
“Due process of law requires that the proceedings shall
be fair, but fairness is a relative, not an absolute
concept. . . What is fair in one set of circumstances
may be an act of tyranny in others.” Snyder v.
Massachusetts, 291 U.S. 97, 116, 117 (1934). See also
Buchalter v. New York, 319 U.S. 427, 429 (1943). In
order to declare a denial of it. . . [the Court] must

10
find that the absence of that fairness fatally infected the
trial; the acts complained of must be of such quality
as necessarily prevents a fair trial.” Lisenba v.
California, 314 U.S. 219, 236 (1941). Ex parte Young,
209 U.S. 123, 159-60 (1908) (stating that the state
official is “stripped of his official or representative
character and is subjected in his person to the
consequences of his individual conduct. The State
has no power to impart to him any immunity from
responsibility to the supreme authority of the United
States.”) (citation omitted). In Ex parte Young, the
Court held that the Eleventh Amendment does not
bar suit against a state official acting in violation of
federal law. Although often termed a legal fiction the
doctrine is premised on the unassailable idea that a
state cannot authorize its officials to violate the
Constitution and laws of the United States. Thus,
such an action is not considered an action of the state
and cannot be shielded from suit by a state’s immunity.
Therefore, when this doctrine applies, a state officer
can be sued for violating a mandatory federal duty.
See Hafer v. Melo, 502 U.S. 21, 30 (1991) (“[S)ince Ex
parte Young;" we said, ‘it has been settled that the
Eleventh Amendment provides no shield for a state
official confronted by a claim that he had deprived
another of a federal right under the color of state
law.’”) (quoting Scheuer v. Rhodes, 416 U.S. 232, 237
(1974)) (first alteration in original) (internal citation
omitted); Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89, 105 (1984) (stating that the Ex parte
Young doctrine is necessary “to permit the federal
courts to vindicate federal rights and hold state officials
responsible to ‘the supreme authority of the United
States’”) (quoting Ex parte Young, 209 U.S. at 160).

11

If such a suit is successful, the state officer may be
held personally liable for damages under 42 U.S.C.
§ 1983 based upon actions taken in his official capacity.
See Hafer, 502 U.S. at 30-31.
In the recent Third Circuit section 1983 case,
fathers of minor children brought actions seeking
declaratory and injunctive relief against various
defendants, including state court judges, alleging
that custody standards violated the Fourteenth Amend­
ment. Finding Rooker-Feldman inapplicable, although
ultimately ruling for the defendants, the Third Circuit
pointed out that the plaintiffs did not challenge
state court judgments but the underlying policy that
governed them, namely, allegedly stripping parents
of custody in favor, of other parents without a plenary
hearing and using an improper best-interests-of-thechild standard. Allen v. DeBello, 2017 WL 2766365 (3rd
Cir. 2017). The PlaintiffiAppellant replies and respect­
fully asks this Honorable Second Circuit Court to grant
his appeal and set up a schedule for discovery and for
this matter to be decided on the merit because of the
obvious bias of Jeffrey S. Brown and his abuse of
judicial power. Judges should render decisions based
on what the law states so as not to ensure mediocrity
in the judiciary. That upon information and belief
Jeffrey S. Brown tampered with the records and
certain documents were removed from the records to
purposely harm me. He should have recused himself
from the matter. He showed lack of judicial knowledge
and real understanding of the case. He purposely
did everything he could to punish me. Instead of
being a neutral umpire he descended onto the arena
and showed personal hatred, bias and discriminatory
tendencies towards me. That contrary to the Appellees

12

response my ex-wife’s property was actually purchased
with my money and most of their false claims leave
me speechless and I am very troubled by it. A lot of
things was done wrong in this case and they are
afraid of the exposure this will bring. I pray this
Honorable Court to grant my appeal and for this matter
to proceed to discovery where I would be able to
expose what actually happened in this matter. I
really need much time as a Pro Se to do proper
research in my case. This case is about violation of my
Constitutional rights pursuant to Title 42 Section
1983 Fraud upon the Court pursuant to Title 28
Section 455a. In his response, he does not oppose the
claims at all, but rather immunity and he is not
immune from fraud. Texas Dep’t of Community Affairs
v. Burdine, 450 U.S. 248, 253 (1981). The case leaves
the Judge to pay damage award personally. See, e.g.,
Zarcone v. Perry, 572 F.2d 52 (2d Cir. 1978) Damage
award upheld against judge who had a coffee and
frankfurter vendor brought handcuffs to his chambers
were the judge berated and threatened the vendor for
selling a “putrid” cup of coffee. See, Braatelien v. United
States, 147 F.2d 888, 895 (8th Cir. 1945) “Judicial
title does not render its holder immune to crime even
when committed behind the shield of judicial office.”
(Citation Omitted). Vickrey v. Dunivan, 59 N.M. 90,
279 P.2d 853 (1955) Justice of the peace, who tried
motorist under a village ordinance he knew did not
exist, and whose offence, if any, occurred outside his
village, was not empowered with jurisdiction and thus
was not immune.
In order to implement the Civil Rights amend­
ments, Congress enacted the Civil Rights Act of 1871
codified as 42 U.S.C. § 1983. Section 1983 imposes

13
civil liability on “every person who under the color of
state law causes another person within the jurisdiction
of the United States deprivation of any rights, priv­
ileges or immunities secured by the Constitution and
laws. Magistrate Pulliam was shock when in 1984;
the Supreme Court ruled that she was liable for over
$80,000 because her conduct caused private injury to
a plaintiff—even though her actions were indisputably
judicial acts within her subject jurisdiction. Pulliam
v. Allen, 466 U.S. 522 (1984).
The provisions of the Bill of Rights now applicable
to the States contain basic guarantees of a fair trialright to counsel, right to speedy and public trial,
right to be free from use of unlawfully seized evidence
and unlawfully obtained confessions, and the like.
But this does not exhaust the requirements of fairness.
“Due process of law requires that the proceedings shall
be fair, but fairness is a relative, not an absolute
concept... What is fair in one set of circumstances may
be an act of tyranny in others.” Snyder v. Massachu­
setts, 291 U.S. 97, 116, 117 (1934). See also Buchalter
v. New York, 319 U.S. 427, 429 (1943). In order to
declare a denial of it. .. [the Court] must find that the
absence of that fairness fatally infected the trial; the
acts complained of must be of such quality as neces­
sarily prevents a fair trial.” Lisenba v. California,
314 U.S. 219, 236 (1941). Ex parte Young, 209 U.S.
123, 159-60 (1908) (stating that the state official is
“stripped of his official or representative character
and is subjected in his person to the consequences of
his individual conduct. The State has no power to
impart to him any immunity from responsibility to
the supreme authority of the United States.”) (citation
omitted). In Ex parte Young, the Court held that the

14

Eleventh Amendment does not bar suit against a
state official acting in violation of federal law. Although
often termed a legal fiction the doctrine is premised
on the unassailable idea that a state cannot authorize
its officials to violate the Constitution and laws of the
United States. Thus, such an action is not considered
an action of the state and cannot be shielded from
suit by a state’s immunity. Therefore, when this doc­
trine applies, a state officer can be sued for violating
a mandatory federal duty. See Hafer v. Melo, 502
U.S. 21, 30 (1991) C‘[S)ince Ex parte Young” we said,
'it has been settled that the Eleventh Amendment
provides no shield for a state official confronted by a
claim that he had deprived another of a federal right
under the color of state law.’”) (quoting Scheuer v.
Rhodes, 416 U.S. 232, 237 (1974)) (first alteration in
original) (internal citation omitted); Pennhurst State
Sch. & Hosp. v. Halderman, 465 U.S. 89, 105 (1984)
(stating that the Ex parte Young doctrine is necessary
“to permit the federal courts to vindicate federal
rights and hold state officials responsible to ‘the
supreme authority of the United States’”) (quoting
Ex parte Young, 209 U.S. at 160). If such a suit is
successful, the state officer may be held personally
liable for damages under 42 U.S.C. § 1983 based upon
actions taken in his official capacity. See Hafer, 502
U.S. at 30-31.
In the recent Third Circuit section 1983 case,
fathers of minor children brought actions seeking
declaratory and injunctive relief against various
defendants, including state court judges, alleging
that custody standards violated the Fourteenth Amend­
ment. Finding Rookef-Feldman inapplicable, although
ultimately ruling for the defendants, the Third Circuit

15

pointed out that the plaintiffs did not challenge state
court judgments but the underlying policy that
governed them, namely, allegedly stripping parents
of custody in favor of other parents without a plenary
hearing and using an improper best-interests-of-thechild standard. Allen v. DeBello, 2017 WL 2766365
(3rd Cir. 2017). Plaintiffs due process was violated
without valid notice and hearing.
5. The actions specified here amounts to violations
of the United States Constitution and federal and
local civil rights laws. Plaintiffs seek a declaratory
judgment, injunctive and equitable relief and compen­
satory damages and costs.
6. That this was a matrimonial action in the
Supreme Court Mineola, Nassau County in the State
of New York before Judge Jeffrey Brown. The Judge
violated Plaintiffs civil rights because the Plaintiff
filed a grievance and to which he believed the Judge
took personal to deny him equal protection under the
law. I believe that as a result of this, Judge Jeffrey
Brown abused his Judicial office and power and instead
of being an unbiased arbiter decided to descend into
the arena and to dust himself and he made the fight
between me and him instead of my ex-wife Ramandeep
Badwal.
7. That the on the issue of the equitable distrib­
ution and with regard to the property located at 11030 62 Drive, Forest Hills, NY was sold for about
$780,000.00 even though the property was worth more
than $899,000 or even appraised more and plaintiff
received nothing from the sale because my rights
were trample by Judge Jeffrey Brown as a vendetta.

16

That upon this Judge Jeffrey Brown did not
conduct proper hearing and gave the marital property
located at 304 Brymawar Road, New Hyde Park, NY
completely to Ramandeep Badwal and leaving me with
no compensation.
8. That Plaintiff paid for the School expenses of
Ramandeep Badwal who acquired Bachelor of Nursing
degree during the marital period and because Judge
Jeffrey Brown was biased, he failed to consider that I
was entitled to that certificate and her pensions.
9. That in addition the marital bank , account of
about $32,000 was given to Ramandeep Badwal and I
received nothing. The injustice here was so glaring that
would shock any fair minded person. That upon all
these I was left with marital debts, They fail to prop­
erly allocate money for the hotel sale. That Judge
Jeffrey Brown did everything intentionally to deny
me due process.
That I believe that proper records were not main­
tained in my case and that I was denied due process.
The child support payments were wrongfully
calculated as a way to punish me.
The Court did not give me the credit that I invested
in the Taxi business. When the Medallion was sold it
was invested in the Diamond Motel, Abilene, Kansas.
They failed to divide the funds 50/50 and equitably.
Facts were misrepresented by Judge Jeffrey Brown with
claim that Mr. Badwal did not recall the Prudential
loan when he presented real proof the $29,000 was
borrowed and I was never credited for the amount.
The Court system is skewed against certain people
who have personality clash with the State Court Judges

17
and some courts are wracked with systemic bias that
infected some Judges opinions and decisions.

ARGUMENT
I.

Due Process Requires an Unbiased DecisionMaker

The Due Process Clause of the Fourteenth Amend­
ment provides that no state may “deprive any person
of life, liberty, or property, without due process of
law.” U.S. Const, amend. XIV, § 1. The protections of
the Due Process Clause attach to licenses essential to
the pursuit of an occupation, including the taxi licenses
at issue in this case. See Bell v. Burson, 402 U.S.
535, 539 (1971). “A fair trial in a fair tribunal is a
basic requirement of due process.” In re Murchison,
349 U.S. 133, 136 (1955). Accordingly, “under the Due
Process Clause no judge can be a judge in his own case
or be permitted to try cases where he has an interest
in the outcome.” Aetna Life Ins. Co. v. Lavoie, 475 U.S.
813, 822 (1986) (quoting In re Murchison, 349 U.S. at
136) (internal quotations and alterations omitted).
A hearing before a tribunal with a financial stake
in the proceeding’s outcome does not comport with the
requirements of due process. See Gibson v. Berryhill,
411 U.S. 564, 579 (1973); Ward v. Vil. ofMonroeville,
409 U.S. 57, 59 (1972); Turney v. Ohio, 273 U.S. 510,
522 (1927). In Tumey v. Ohio, the Supreme Court
held that a judge would be deemed impermissibly
biased where he maintained a “direct, personal, sub­
stantial pecuniary interest” in the case before him.

18
Tumey, 273 U.S. at 523. In Tumey, the mayor of the
town, sitting as a judge, received a portion of the fines
that he assessed. Id. at 520. The Court found that
even if the mayor’s decision-making was unaffected
by this conflict of interest, it was the mere possibility
of temptation that violated due process. Id. at 535;
see also Caperton v. A.T. Massey Coal Co., 129 S.Ct.
2252, 2260 (2009) (discussing Tumey).
There is no requirement that a judge’s pecuniary
interest be “as direct or positive as it appeared in
Tumey” to violate due process. Gibson, 411 U.S. at
579; see also Caperton, 129 S.Ct. at 2265. For example,
in Gibson v. Berryhill, the Court found that due process
was violated where a license revocation proceeding
was presided over by the Alabama State Optometry
Board, whose members stood to gain financially by
limiting the number of practicing optometrists in the
state. 411 U.S. at 578. It is clear that this due process
analysis “applies to administrative agencies which
adjudicate as well as to courts.” Withrow v. Larkin,
421 U.S. 35, 46-47 (1975). When it comes to evaluating
whether the financial interest of a tribunal in the
outcome of a case violates due process, a court need
not determine whether the tribunal was in fact
biased; rather, the proper constitutional inquiry is
whether, under the circumstances, the decision-maker’s
financial interest “would offer a possible temptation
to the average ... judge to . .. lead him not to hold the
balance nice, clear and true.” Caperton, 129 S.Ct. at
2264 (quoting Tumey, 273 U.S. at 532). A judge’s
interest in a case will disqualify him from sitting in
judgment when “under a realistic appraisal of psycho­
logical tendencies and human weakness, the [judge’s]
interest poses such a risk of actual bias or prejudgment

19

that the practice must be forbidden if the guarantee
of due process is to be adequately implemented.”
Caperton, 129 S.Ct. at 2264 (quotations omitted).
If Appellants’ allegations are true, then there
was systemic bias built into the challenged TLC hearing
procedures, thus raising serious due process concerns.
Because the alleged “pay-to-play” system would have
affected every ALJ employed by the TLC, it follows
that there exists a triable issue of fact as to whether
the ALJs presiding over the Appellants’ hearings had
a constitutionally impermissible interest in the outcome
of their cases.

«...

II. Whether the Availability of an Article 78
Proceeding Satisfies Due Process Depends
on the Nature of That Proceeding, and the
Proceeding Available to Appellants Was Insuf­
ficient to Challenge the Alleged Systemic
Bias in Their Administrative Hearings.
In the decision below, the court relied on Locurto
v. Safir, 264 F.3d 154 (2d Cir. 2001) to hold, for due
process purposes, that “an Article 78 proceeding ... is
sufficient for claims that the agency adjudicator was
biased and prejudged the outcome or that ex parte
communications with other officials may have infected
the adjudicator’s ruling.” Mag. J. R. & R. at 23 (also
citing Nuebe v. Daus, 665 F.Supp.2d 311 (S.D.N.Y
2009)). The Association respectfully submits that this
conclusion was based on a misreading of Locurto and
a failure to distinguish among the various forms of
Article 78 proceedings, with the result that serious
due process claims— based on allegations of systemic
judicial bias—could go unheard by a neutral tribunal.
Appellants’ allegations of systemic bias—including

20

direct financial incentives and a 100% success rate
for the TLC—plainly distinguish this case from the
ordinary administrative proceeding, where ALJs are
merely employed by the agency whose actions are being
challenged.
A. Locurto Requires a Full Adversarial Hearing
in Order to Satisfy Due Process.
In Locurto v. Safir, this Court held that the pres­
ence of a biased decision-maker at a pre-termination
administrative hearing was not a violation of due
process so long as “the state affords [the petitioner],
subsequent to his termination, a full adversarial
hearing before a neutral adjudicator.” 264 F.3d at 174.
This Court went on to explain that such a hearing
must afford the petitioner the opportunity to submit
new evidence and “have a trial of. .. disputed issues,
including constitutional claims.” Id. The plaintiffs in
Locurto did not dispute the court’s finding that an
Article 78 proceeding would satisfy these require­
ments. Id.
B. Whether an Article 78 Proceeding Satisfies
Due Process Depends Critically on the Type of
Proceeding Available Under the Circumstances.
Article 78 of the New York Civil Practice Law and
Rules (“CPLR”) permits a special proceeding to chal­
lenge agency action. See Campo v. New, York City
Emp. Ret. Sys., 843 F.2d 96, 101 (2d Cir. 1988). An
Article 78 proceeding may provide relief previously
available through the common law writs of (l) certio­
rari, (2) mandamus to review, (3) mandamus to compel,
and (4) prohibition. See CPLR 7801. Although these
common law writs have now been consolidated into a

21

single type of proceeding, the scope of review of the
agency action challenged in an Article 78 proceeding
varies significantly depending upon which type of
rehef is sought. Importantly, not all types of proceeding
afford the “full adversarial hearing”—with an oppor­
tunity to submit new evidence and “have a trial of
... disputed issues”—critical to the holding in Locurto,
264 F.3d at 174. As such, a due process claim like the
Appellants’ cannot be dismissed simply on the ground
that an Article 78 pi’oceeding was available to them;
the nature of the available proceeding should be a
critical component of the determination.
An Article 78 proceeding challenging a denial or
termination of a license will necessarily fall within
the relief previously sought by the writs of certiorari
or mandamus to review. If the challenge is made after
a quasi-judicial evidentiary hearing, then it is in the
character of certiorari review; if the challenged agency
action did not involve a hearing at the agency level,
then the Article 78 proceeding is in the form of
mandamus to review. See David D. Siegel, New York
Practice § 561 at 927 (3d ed. 1999). This distinction is
critical, as the scope of the Article 78 court’s l'eview
differs significantly between the two types of proceed­
ing. We do not, therefore, address the other types of
Article 78 proceeding, mandamus to compel and
prohibition, the form of mandamus to review could
satisfy the requirements set forth in Locurto.
The inquiry under certiorari review is whether
the agency decision is supported by substantial evidence
in the record below. See CPLR 7803; Yarbough v.
Franco, 95 N.Y.2d 342, 347 (2000); see also Pell, 34
N.Y.2d at 230. Certiorari entails a limited review of

22

the ALJ’s findings, and does not permit introduction
of new evidence on appeal. See CPLR 7803(4). Certiorari
is “confined to the facts and record adduced before the
agenc[y].” Yarbough v. Franco, 95 N.Y.2d 342, 347
(2000); see also Pell v. Board ofEduc., 34 N.Y.2d 222,
230 (1974). This means that an Article 78 court on
certiorari has no power to make new factual findings,
see Kelly v. SaJdr, 96 N.Y.2d 32, 38 (2001), to disturb
the credibility determinations of the hearing officer,
see Berenhaus v. Ward, 70 N.Y.2d 436, 443-44 (1987);
Rodriguez-Rivera v. Kelly, 2 N.Y.3d 776, 777 (2004),
or “to review the facts generally as to weight of
evidence, beyond seeing to it that there is substantial
evidence.” Pell, 34 N.Y.2d at 230. This is true even
where petitioner has alleged judicial bias at the agency
hearing itself. See Hughes v. Suffolk county Dep’t of
Civil Serv., 74 N.Y.2d 833, 834, amended, 74 N.Y.2d
942 (1989). A proceeding in the character of mandamus
to review, on the other hand, provides a plenary
review of whether the agency action was contrary to
law or arbitrary and capricious. See CPLR 7803.
Where issues of fact are raised by the parties’ affidavits,
a trial may be held to determine whether an agency’s
decision was arbitrary and capricious. See CPLR
7804(h); In re Pasta Chef, Inc. v. State Liquor Auth.,
389 N.Y.2d 72, 74-75 (App. Div. 4th Dept. 1976)
(holding that trial court’s evidentiary hearing of Article
78 seeking mandamus to review was not in error). In
such a trial, the Article 78 court could develop a
record and make its own factual findings. See, e.g.,
Lakeshore Nursing Home v. Axelrod, 586 N.Y.S.2d
433, 438 (App. Div. 3d Dept. 1992). The above
descriptions make clear that, as between certiorari
and mandamus to review, only the latter type of

23

proceeding could meet Locurto’s requirement of “a
full adversarial hearing before a neutral adjudicator.”
264 F.3d at 174. In a certiorari review, the Article 78
court may not hold a new trial, but instead is limited
to a review of the record developed at the hearing. It
may not make new factual findings, substitute its
judgment for the agency’s, or overturn credibility
determinations. While the court might identify blatant
individualized bias appearing on the record below, it
is difficult to see how such a proceeding could address
claims that more insidious or systemic bias infects
the whole administrative process.
The need for access to a mandamus-to-review-type
Article 78 proceeding in order to comport with Locurto’s
requirements is consistent with a line of cases in
which this Court found that the availability of an
Article 78 proceeding was sufficient to provide due
process where no evidentiary hearing was held at the
agency level," given that Article 78 afforded plaintiffs
subsequent access to such a hearing on their claims.
See Interboro Inst., Inc., v. Foley; 985 F.2d 90, 93-94
(2d Cir. 1993); see also, e.g., Campo, 843 F.2d at 102-03;
Hellenic Am. Neighborhood Action Comm. v. City of
New York, 101 F.3d 877, 881 (2d Cir. 1996); Beechwood
Restorative Care Ctr. v. Leeds, 436 F.3d 147, 156-7 (2d
Cir. 2006). It would be inappropriate to extend Locurto
to conclude that a certiorari-type Article 78 proceeding
—with no evidentiary hearing and no new fact-finding
—is sufficient to address allegations of systemic viola­
tions of due process at quasi-judicial hearings. There
is a separate line of Second Circuit cases finding that
the availability of a certiorari-type Article 78 proceed­
ing can suffice to prevent a due process violation, but
these cases involve challenges to random or unauthor-

24

ized conduct rather than deprivations resulting from
established state policies or procedures. See Vargas v.
City ofNew York, 377 F.3d 200.
C. Appellants Did Not Have Access to the
Proceeding That Met the Requirements of
Locurto.
The Appellants in this case did not have access
to a proceeding that satisfied the requirements in
Locurto. See 264 F.3d at 174. Since they all received
quasi-judicial evidentiary hearings in front of the
TLC, any Article 78 proceeding that they could have
brought would have been in the character of a certiorari
review, and the record reviewed by the Article 78
court would have been limited to the record adduced
in front of the TLC in each individual driver’s case.
The Appellants’ due process claims rest on their
contention that their termination hearings were tainted
by systemic bias. The bias they allege is insidious in
nature, reflected in the per diem compensation rate
for ALJ termination decisions, the hidden pressures
on the ALJs to rule in favor of the TLC, and aggregate
numbers indicating a 100% ALJ decision rate in (2d
Cir. 2004); Munafo v. Metropolitan Transp. Auth., 285
F.3d 201, 214 (2d Cir. 2002). In due process challenges
to random or unauthorized conduct, the only issue to
be decided is whether the state has provided an
adequate post-deprivation remedy. See Gudema v.
Nassau County, 163 F.3d 717, 724-25 (2d Cir. 1998).
Such an inquiry has no place where, as here, the
authorized procedures are themselves the subject of
the challenge and the issue is whether the plaintiffs
have received due process in the first instance. See
Zihermon v. Burch, 494 U.S. 113, 136 (1990). favor of

25

the TLC. If Appellants were unable, in the context of
their individual administrative proceedings before the
TLC, to depose their ALJs or obtain the agency
documents and email messages produced during
discovery in their federal court action, they would not
even have been able to properly allege the bias claim
in an Article 78 proceeding. The Article 78 court
would have been powerless to supplement the record,
or overturn the credibility and factual determinations
made by allegedly biased ALJs. Nor could the Article
78 court have addressed the weight of the evidence or
overturned the discretionary determinations made by
allegedly biased ALJs. Locurto should not be extended
to a case like this one, where only certiorari review
was available. Had Appellants availed themselves of
Article 78, they would not have been able to enter
new evidence, develop a record or have a trial to
determine whether bias so infected their revocation
hearings as to violate due process. Such a proceeding
would not have It is possible that the Locurto plaintiffs
erred in conceding that Article 78 afforded them access
to a “full adversarial proceeding.” See Locurto, 264
F.3d at 174. Like the Appellants here, the plaintiffs
in Locurto had pre-termination hearings, Locurto,
264 F.3d at 160, and as such would likely have been
permitted only a certiorari-type Article 78 review,
which does not provide for new evidence or a trial of
disputed constitutional issues. See CPLR 7803(4). In
any event, Appellants have made no similar concession
here, and we are unaware of any basis upon which they
could bring an Article 78 proceeding in the nature of
mandamus to review, provided the “full adversarial
hearing” required by Locurto; rather such an Article
78 proceeding would be more in the character of an

26

appeal, and insufficient as a constitutional matter to
provide due process. See Ward v. Village ofMonroeville,
409 U.S. 57 (1972). We respectfully submit that this
was not the intended result of Locurto, and urge the
Court to permit Appellants’ Section 1983 claims to
proceed so as to provide an adequate forum to hear
their allegations of systemic judicial bias.
In Ward v. Village of Monroeville, the Supreme
Court invalidated traffic violation convictions obtained
where the mayor of Monroeville sat as the trier of fact.
See 409 U.S. at 57-58. The court found that the mayor,
as chief executive of the municipality that stood to
benefit financially from the convictions, was not an
impartial decision-maker and, therefore, the convictions
violated due process. Id. at 60. The village argued that
“any unfairness at the trial level [could] be corrected
on appeal and trial de novo in the County Court of
Common Pleas.” Id. at 61. The Court rejected this
reasoning, holding that “Petitioner is entitled to a
neutral and detached judge in the first instance.” Id.
at 62. This requirement was reaffirmed and extended
to the administrative context by a unanimous court
in Gibson v. Berryhill, 411 U.S. at 579. In Gibson,
the availability of de novo review under state law did
not alter the fact that the Board proceedings them­
selves violated due process. Id. That the plaintiff
optometrists could have sought de novo review in state
court did not mitigate the fact that the license
revocation hearings were themselves heard by a
tribunal with a financial stake in the outcome. Id. at
578. The Plaintiff/Appellant replies and respectfully
asks this Honorable United States Supreme Court to
grant his appeal and set up a schedule for discovery
and for this matter to be decided on the merit

27

%n v

because of the obvious bias of Jeffrey S. Brown and
his abuse of judicial power. Judges should render
decisions based on what the law states so as not to
ensure mediocrity in the judiciary. That upon infor­
mation and belief Jeffrey S. Brown tampered with
the records and certain documents were removed
from the records to purposely harm me. He should
have recused himself from the matter. He showed
lack of judicial knowledge and real understanding of
the case. He purposely did everything he could to
punish me. Instead of being a neutral umpire he
descended onto the arena and showed personal hatred,
bias and discriminatory tendencies towards me. That
contrary to the Appellees response my ex-wife’s prop­
erty was actually purchased with my money and most
of their false claims leave me speechless and I am very
troubled by it. A lot of things were done wrong in this
case and they are afraid of the exposure this will
bring. I pray this Honorable Court to grant my appeal
and for this matter to proceed to discovery where I
would be able to expose what actually happened in
this matter. I really need much time as a Pro Se to do
proper research in my case. This case is about violation
of my Constitutional rights pursuant to Title 42 Section
1983 Fraud upon the Court pursuant to Title 28 Section
455a. In his response, he does not oppose the claims
at all, but rather immunity and he is not immune
from fraud. Texas Dep’t of Community Affairs v.
Burdine, 450 U.S. 248, 253 (1981). The case leaves the
Judge to pay damage award personally. See, e.g.,
Zarcone v. Perry, 572 F.2d 52 (2d Cir. 1978) Damage
award upheld against judge who had a coffee and
frankfurter vendor brought handcuffs to his chambers
were the judge berated and threatened the vendor for

28

selling a “putrid” cup of coffee. See, Braatelien v. United
States, 147 F.2d 888, 895 (8th Cir. 1945) “Judicial title
does not render its holder immune to crime even when
committed behind the shield of judicial office.” (Citation
Omitted). Vickrey v. Dunivan, 59 N.M. 90, 279 P.2d
853 (1955) Justice of the peace, who tried motorist
under a village ordinance he knew did not exist, and
who offence, if any, occurred outside his village, was
not empowered with jurisdiction and thus was not
immune.
In order to implement the Civil Rights amend­
ments, Congress enacted the Civil Rights Act of 1871
codified as 42 U.S.C. § 1983. Section 1983 imposes
civil liability on “every person who under the color of
state law causes another person within the jurisdiction
of the United States deprivation of any rights, priv­
ileges or immunities secured by the Constitution and
laws. Magistrate Pulliam was shock when in 1984; the
Supreme Court ruled that she was liable for over
$80,000 because her conduct caused private injury to
a plaintiff—even though her actions were indisputably
judicial acts within her subject jurisdiction. Pulliam
v. Allen, 466 U.S. 522 (1984). The provisions of the
Bill of Rights now applicable to the States contain
basic guarantees of a fair trial-right to counsel, right
to speedy and public trial, right to be free from use of
unlawfully seized evidence and unlawfully obtained
confessions, and the like. But this does not exhaust
the requirements of fairness. “Due process of law
requires that the proceedings shall be fair, but fairness
is a relative, not an absolute concept. . . What is fair
in one set of circumstances may be an act of tyranny
in others.” Snyder v. Massachusetts, 291 U.S. 97, 116,
117 (1934). See also Buchalter v. New York, 319 U.S.

29
427, 429 (1943). In order to declare a denial of it. . .
[the Court] must find that the absence of that fairness
fatally infected the trial; the acts complained of must
be of such quality as necessarily prevents a fair
trial.” Lisenba v. California, 314 U.S. 219, 236 (1941).
Ex parte Young, 209 U.S. 123, 159-60 (1908) (stating
that the state official is “stripped of his official or
representative character and is subjected in his
person to the consequences of his individual conduct.
The State has no power to impart to him any
immunity from responsibility to the supreme authority
of the United States.”) (citation omitted). In Ex parte
Young, the Court held that the Eleventh Amendment
does not bar suit against a state official acting in
violation of federal law. Although often termed a
legal fiction the doctrine is premised on the unassail­
able idea that a state cannot authorize its officials to
violate the Constitution and laws of the United States.
Thus, such an action is not considered an action of
the state and cannot be shielded from suit by a state’s '
immunity. Therefore, when this doctrine applies, a state
officer can be sued for violating a mandatory federal
duty. See Hafer v. Melo, 502 U.S. 21, 30 (1991) (“[S)ince
Ex parte Young,” we said, ‘it has been settled that
the Eleventh Amendment provides no shield for a
state official confronted by a claim that he had
deprived another of a federal right under the color of
state law.’”) (quoting Scheuer v. Rhodes, 416 U.S.
232, 237 (1974)) (first alteration in original) (internal
citation omitted); Pennhurst State Sch. & Hosp. v.
Halderman, 465 U.S. 89, 105 (1984) (stating that the
Ex parte Young doctrine is necessary “to permit the
federal courts to vindicate federal rights and hold
state officials responsible to ‘the supreme authority of

30

the United States’”) (quoting Ex parte Young; 209 U.S.
at 160). If such a suit is successful, the state officer
may be held personally liable for damages under 42
U.S.C. § 1983 based upon actions taken in his official
capacity. See Hafer, 502 U.S. at 30-31.
In the recent Third Circuit section 1983 case,
fathers of minor children brought actions seeking
declaratory and injunctive relief against various
defendants, including state court judges, alleging
that custody standards violated the Fourteenth Amend­
ment. Finding Rooker-Feldman inapplicable, although
ultimately ruling for the defendants, the Third Circuit
pointed out that the plaintiffs did not challenge state
court judgments but the underlying policy that
governed them, namely, allegedly stripping parents
of custody in favor of other parents without a plenary
hearing and using an improper best-interests-of-thechild standard. Allen v. DeBello, 2017 WL 2766365
(3rd Cir. 2017).

31

CONCLUSION
In light of the law discussed above, the AppellantPlaintiff respectfully asks that the decision of the
United States Supreme Court be reversed to permit
Appellant’s Section 1983 claims of alleged judicial
bias to proceed and/or in the alternative to order a new
trial.
Respectfully submitted,
Avtar S. Badwal
Petitioner Pro Se
9737 120th Street
South Richmond Hill, NY 11419
(212)671-2433
BADWALAVTAR@GMAIL. COM

August 20, 2019

